                      America the Beautiful


         FEDERAL LABOR RELATIONS AUTHORITY
                  OFFICE OF INSPECTOR GENERAL


                      41st SEMIANNUAL REPORT
                           TO THE CONGRESS




                           October 1, 2008
                               through
                           March 30, 2009

Date Issued: May 5, 2009
                          EXECUTIVE SUMMARY
This is the 41st Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to the
Inspector General Act of 1978, as amended and the Inspector General Reform Act of
2008, summarizes the major activities and accomplishments of the FLRA Inspector
General for the period of October 1, 2008 to March 31, 2009.

During this reporting period, the FLRA Inspector General began conducting internal
reviews of FLRA programs to help the new Chair update the programs and
administrative issues. The FLRA Inspector conducted and issued internal reviews of
FLRA’s Administrative Law Judges. A second internal review regarding the FLRA
Federal Impasses Panel was also started. The FLRA Inspector General also updated
several Inspector General Instructions and the Inspector General Audit Manual. The
FLRA Inspector General also created a Strategic Plan. The FLRA Inspector General
created task proposals, evaluations and contracted auditors to conduct the 2009
Financial Statement Audit and Information Technology and FISMA.

The FLRA Inspector General also conducted 5 investigations and responded to 4
hotline complaints received during this reporting period. The FLRA Inspector General
submitted information for the 2008 Annual Report to the President and Inspector
General participated in two surveys.

During this reporting period, a Republican and then a Democratic appointee became the
new Chair of the FLRA. Both significantly focused on updating and improving the
Agency. They both focused on addressing issues which were not addressed by
management from 2000 to 2008. This included addressing a significant amount of
Inspector General findings and recommendations, securing the FLRA Inspector
General’s internet, and adding Inspector General information to the FLRA intranet. The
FLRA has definitely improved and management is focusing on re-establishing an
excellent Federal Agency.




                                41st Semi Annual Report
                                      Page 2 of 27
                          LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President with the advice and consent of the Senate. One
Member is appointed by the President to serve as Chair of the Authority and as Chief
Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of the Administrative Law Judges, the Office of Policy, Project and
Performance Management, the Office of the Solicitor, the Office of the Executive
Director, the Office of the Inspector General and the Office of the General Counsel.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

                                 41st Semi Annual Report
                                       Page 3 of 27
Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chair’s primary point of contact with the Solicitor, Executive Director,
EEO Director, and Inspector General.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits, investigations, evaluations,
inspections, surveys and other oversight activities related to the FLRA programs and
operations. In addition, the Inspector General is authorized to create Inspector General
policies and review new FLRA instructions to promote economic, efficient, and effective
agency programs, which prevent fraud, waste, abuse and mismanagement. The
Inspector General is responsible for keeping the Chair, FLRA and the Congress fully
informed of problems and deficiencies, as well as the necessity for corrective actions.
Public Law 100-504 and the Inspector General Act, as amended, mandate the
requirements, objectivity and independence of Federal Agency Inspectors General. The
Office of Inspector General’s 2008 budget is $333,680.20 which includes salaries for the
Inspector General and Administrative Assistant but is not sufficient for the Inspector
General to perform the requirements and undergo senior level training related to and
required for the Inspector General’s job.

Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Santa
Ana, California. The OGC investigates all unfair labor practice charges filed either by
an employee, a labor union or a federal agency and prosecutes all unfair labor practice

                                 41st Semi Annual Report
                                       Page 4 of 27
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals and establishes case-handling policies and
procedures for the OGC.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contributes to a more effective Government.



                                41st Semi Annual Report
                                      Page 5 of 27
The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

The FLRA Inspector General will be conducting a Memorandum of Understanding with
the National Labor Relations Authority (NLRB) Inspector General which permits the use
of the NLRB General Counsel.

   Conducts and supervises investigations, inspections, internal reviews, audits,
   surveys and evaluations of the programs and operations of the FLRA;

   Provides leadership and coordination, and recommends actions to management,
   which:

        1.   Promote economy, efficiency, and effectiveness in agency programs and
             operations;

        2.   Prevent and detect fraud, waste, abuse, and mismanagement of
             Government resources, and

        3.   Inform the Chair and Congress regarding problems and deficiencies, and
             the progress of corrective actions.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required and improved by the Chair,
FLRA, the FLRA Inspector General uses contracted auditors to perform FLRA audits.
The FLRA, Inspector General had submitted.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, with
an independent and objective assessment of the organization’s efficiency and
effectiveness. This is accomplished through proactive oversight activities of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to

                                 41st Semi Annual Report
                                       Page 6 of 27
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA programs and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission;

   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations;

   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls; and

   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW/ INVESTIGATION ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

2008 FLRA Financial Statements Audit

The FLRA, Inspector General Internal Review of Information Technology
Contractors, Closed January 26, 2009.

During this reporting period, at the request of management, the FLRA Inspector General
conducted an internal review of the necessity of Information Technology Contractors, as
well as the capability of the current FLRA Information Technology staff to bring the
diminished Information Technology system back to current requirements and future
aspects. This review affirmed the current necessity of the contractors because there
was no Chief Information Officer (CIO) and three information technology employees
who had not had training and necessary experience in information technology or
security. The contractors were focusing on the inventory of Information Resource
Management equipment, working on creating information technology and security
policy, network administration and security and updating 2003 servers.



                                 41st Semi Annual Report
                                       Page 7 of 27
This review revealed that this 3 year contract (2 options) was quite expensive ($1.2
million), and that the contractors had difficulty working with the FLRA because there
were no prior information technology information files or instructions or FLRA FISMA
reports. In order to help the contractors, the FLRA Inspector General provided the
contractors with the Inspector General FISMA and Information Technology Reports
which helped them focus on improving problems.

This internal review affirmed that if the FLRA hired an experienced CIO and provided
necessary training to the Information Technology employees, they would not require the
contractors’ options. However, until this happens, it was definitely necessary to have
information technology contractors to provide proper information technology
requirements to FLRA management and create information technology and security
instructions.

FLRA Inspector General Internal Review of FLRA Administrative Law Judges
Closed March 3, 2009

This internal review affirmed that the Administrative Law Judges of the FLRA were
professional, independent and conducted their hearings properly. The Administrative
Law Judges handle appeals for the FLRA Office of General case decisions for Unfair
Labor Practice Charges filed by Federal Agencies and Unions. Since the FLRA’s
General Counsel left the FLRA in February 2008 and a new General Counsel was not
appointed during this reporting period, other then a few cases which carried over from
January 2008, the FLRA Administrative Law Judges have not had any hearings to
conduct for the FLRA during this reporting period. Since the FLRA Administrative Law
Judges are independent employees and should not conduct any other FLRA programs,
the Judges were contracted out to other Federal Agencies to conduct other hearings.

Prior to the previous FLRA administration, there was a Chief Judge and 4 Administrative
Law Judges. Currently there is one Chief Judge and 3 Administrative Law Judges, One
Assistant Attorney/Settlement Case Officer and one Legal Technician who serves as an
Office Manager. The Administrative Law Judges conduct their hearings with the parties
in the areas of the FLRA Regional Office that filed the appeal. Obviously, during this
review, no hearings occurred.

The Administrative Law Judges information technology program is sufficient for their
requirements. However, this internal review revealed significant administrative
problems. The Administrative Law Judge office does not have locked doors on 3 sides
and their office is accessible by other FLRA employees. There is no listing on the main
door that the office is the Administrative Law Judges Office. The Administrative Judges
Office file room also has no lock, has a microwave, refrigerator and water release spray
which is accessible to other FLRA employees, and several file cabinets which have no
locks.

The Administrative Law Judges do not have a private Hearing Conference Room. They
can use FLRA’s large conference room if it is available but if it is not, they must use a

                                41st Semi Annual Report
                                      Page 8 of 27
small conference room which is not large enough for parties and witnesses. Also, the
FLRA has not updated the FLRA Library since 2003 and currently there is no Librarian.
Often the Administrative Law Judges have to obtain necessary information regarding
their appeal cases from printed out document books formerly carried by the Library.
They also do not have a private scanner to copy their hearing materials in their office.
Management needs to address the improper aspects of the Administrative Law Judges
Office.

Internal Review of Federal Services Impasse Panel
Closed March 17, 2009

During this reporting period, the FLRA Inspector General conducted an internal review
of the FLRA Federal Services Panel. This oversight activity focused on the issues that
occurred over the last administration. The FSIP political appointees, who were the
Chair’s, Assistant Specialist, and Panel Members were eliminated from the FLRA on
March 6, 2009 and did not respond to the Inspector General regarding this matter.
Therefore, the Inspector General focused on the FLRA FSIP employee’s jobs and will
have to reassess the FSIP management and Panel approximately a year after they are
appointed by the President and confirmed by Congress.

This oversight activity affirmed that FSIP was conducting their mission requirements
properly even though the authority of the FSIP staff was reduced and interactions with
the parties by the staff investigator had to be done on the telephone rather than face- to-
face except for those parties in the Washington D.C. area. The prior FSIP Chair
focused extensively on reducing the budget and reducing the FSIP staff since FSIP
impasse cases filed with the FLRA were also diminishing during the last administration.
Nevertheless, this review affirmed that FSIP handled their impasse cases properly and
did not have any administrative problems.

Management Challenges

During this reporting period, the FLRA Inspector General issued a memorandum on
2009 Management Challenges to the Chairman, FLRA. These management challenges
are:

   1. Focus on Human Resource requirements to improve the authority and present
      jobs of FLRA employees and create Human Resource Policy, as well as check
      into the 25 Human Resource instructions that were diminished during the last
      administration to address current requirements.

   2. Focus on OMB, FISMA and NIST Security Information Federal requirements and
      create proper FLRA security information policy for management and employees.

   3. Create a list of 2009 Mission and Administrative actions which will be focused on
      by FLRA Management for improvement and estimate the amount of budget if
      needed for each action.

                                 41st Semi Annual Report
                                       Page 9 of 27
Increase the FLRA staff training for all FLRA employees to bring them up-to-date and
address the FLRA mission properly.

FLRA Inspector General Investigations and Hotlines

During this reporting period, the FLRA Inspector General conducted 5 Administrative
Investigation and handled 11 Hotline calls. The details of both the Investigations and
hotlines charts are at end of this report.

FLRA Inspector General Surveys

During this reporting period the FLRA Inspector General was involved in a Government
Accountability Office survey, the Council of Inspector General Integrity and Efficiency
Single Audit/A-133 Proposal and Assessment of Need for IG Digital Forensic Lab and a
Survey on Federal Agency Financial Statement Audits.
.
FLRA Inspector General Instructions and Oversight Reports

During this reporting period the FLRA Inspector General updated the FLRA OIG
investigation manual.

ADDITIONAL ACTIVITIES

Documents sent to the new Chair, FLRA

During this reporting period, the Inspector General created the Inspector General 2009-
2011 Strategic Plan, 2009 Inspector General Budget, and updated findings and
recommendations from 2001 to the present. These were all sent to the Chair, FLRA.
The response to the prior findings and recommendations were provided to the Inspector
General on March 30, 2009 by the FLRA Chair. The Inspector General also provided
the new Chairs (first a Republican and now a Democratic appointee) with Inspector
General Regulation and instructions.

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the Inspector General Counsel of Integrity and
Efficiency monthly meetings on a regular basis to ensure that the FLRA Inspector
General is current and aware of requirements, operations and issues related to ECIE
Inspectors General. The FLRA Inspector General represents the ECIE on the
PCIE/ECIE Human Resource Committee.




                                41st Semi Annual Report
                                      Page 10 of 27
Training

During this Reporting Period, the FLRA Inspector General attended Government
Executive conferences which did not require financial expenditures for the FLRA
Inspector General. Ethics training was provided on-line by the FLRA Ethics Officer, as
well as Security Training at the end of the 2008 fiscal year. The FLRA Inspector General
also attended the CIGIE OMB 2009 Financial Statement Audit Training during this
period.

Security Issues

During this reporting period, the FLRA did not have any security issues.

Federal Office Information Access

During this reporting period, the FLRA Inspector General handled two Federal Office
Information Access cases and responded immediately to the requesters.

Training

During this reporting period, the FLRA Inspector General attended Government
Executive meetings and had Financial Statement Audit training. The FLRA Inspector
General also attended FLRA training for the Federal Service Impasse Panel and Merit
Systems Protection Board.

Inspector General Corrective Actions

During this reporting period the Former and Current FLRA Chair and management have
focused extensively on addressing the Inspector General’s findings and
recommendations from 1998 to the present. All Inspectors’ General Corrective Actions
were addressed and 74 were closed during this reporting period. Management also
provided estimated completion dates for those findings and recommendations that are
still open. This was the proper thing to do. A list of these actions is provided on the
next page.




                                41st Semi Annual Report
                                      Page 11 of 27
                              October 1, 2008 through March 30, 2009
                                    Status of Inspector General
                                 Findings and Recommendations
    Report No.              Recommendation                        Target Completion                 Response
   Issued Date

Section II         II/1: Ensure that the maintenance of     The IG received Mgt. response   Open -Section II and III
                   records documenting agency actions,      to IG findings and              Estimate completion 2010.
                   policies and procedures are current      recommendations 3/30/09
                   and distributed to staff.
                   II/2Review working case files
                   retention
                       (b) Meet with office Directors to
                   develop retention schedules for all
                   records not in current schedule and
                   get for changes to current schedule.
                       (c) Develop retention schedules
                   for new records and make changes to
                   current schedules.
                       (d) Submit new schedule for
                   Archivist’s approval
                       (e) Include approved schedule in
                   updated instruction 1323.1.
                   II/3: Require offices to separate
                   temporary and permanent case files.
                   II/4: Ensure that photographs that
                   are a part of a permanent case file
                   conform to 36 CFR Section 1232.
                   II/5: Establish a Vital Records
                   Program.
                   II/6: Identify vital FLRA records and
                   enact measures to protect and
                   update them, and ensure their
                   availability during emergencies.
                   II/7: Consider the offsite
                   maintenance/storage of copies of
                   vital records.

Section III        III/1. Identify which FLRA records are   The IG received Mgt. response
                   not covered by records schedule or       to IG findings and
                   the General Record Schedules.            recommendations 3/30/09
                   III/2: Develop and submit to NARA
                   proposed records schedules for
                   unscheduled records.
                   III/3: Formalize the creation
                   maintenance/disposition of
                   administrative records to the same
                   extent as program records.
                   III/4: Offer records mgt. Guidance to
                   staff on electronic Records Mgt. And
                   FOIA procedures (including E-FOIA
                   amendments).


Mgt. Letter        1. Update all FLRA delegation of         The IG received Mgt. response   Open -1. and 2. Estimated
4/19/98            authority, memoranda of                  to IG findings and              completion 2010.
Instructions/MOU   understanding, and instructions to       recommendations 3/30/09
Update             reflect current mission.



                                            41st Semi Annual Report
                                                  Page 12 of 27
                     2. Distribute updated policy to all      The IG received Mgt. response
                     managers and make them available         to IG findings and
                     to all employees in one central folder   recommendations 3/30/09
                     on the FLRA website along with
                     updated index.




9/28/99 OPM          1. Establish an accountability system    The IG received Mgt. response   1. and 2. Estimated
Review of FLRA       to assess mgt. utilization of human      to IG findings and              completion 2010.
Human Resources      resources.                               recommendations 3/30/09
Program

                                                              The IG received Mgt. response
                     2. Study quality of performance          to IG findings and
                     feedback and provide strategies for      recommendations by e-mail
                     ensuring sufficient quality              Jan.2, 08
                     performance feedback is provided to
                     employees


                                                                                              2. Estimated completion
Audit of the FLRA    2. Review, update and revise as          The IG received Mgt. response
FY 98 Financial      necessary, FLRA Regulations 2301.1       to IG findings and
                                                                                              2010.
Statements and       Financial Mgt. System to reflect         recommendations 3/30/09
Central Services     contemporary policy, including a
Fund (Report No.     requirement for a documented yearly
99-01) -             review of financial mgt. statements by
September 1999).     the Executive Director and audits of
                     financial statements by independent
                     source on a yearly basis


Internal Review of   1. Create centralized Administrative     The IG received Mgt. response
                                                                                              1. - 3. Estimated
FLRA External        Tracking System.                         to IG findings and              completion 2010.
Affairs May 2000                                              recommendations 3/30/09
                     2. Develop/implement FLRA External
                     Affairs Policy.

                     3. Create Agency Policy Compliance
                     with the Paperwork Reduction Act.


Internal Review of   15. The FLRA should enhance the          The IG received Mgt. response
                                                                                              15.thru - 19. Estimated
FLRA’s Travel        Accounting Manual with the detail of     to IG findings and              completion end 2009.
Program 9/18/01      specific procedures for the              recommendations 3/30/09
                     department staff



                                                                                              .


                                              41st Semi Annual Report
                                                    Page 13 of 27
                  16. FLRA should develop written          .
                  budget information and execution
                  policy that outlines the process;
                  states procedures utilized and clarify
                  FLRA approaches and methodology.


                  17. Significant changes or direction
                  from the initial budget submission
                  should be communicated to cost
                  center managers in a timely manner.

                  18. FLRA components and
                  subcomponents should develop data
                  to support effective and justifiable
                  resource allocations.

                  19. The FLRA should consider
                  separating the information
                  Technology budget from the Agency
                  Central Services Fund and place it
                  under the responsibility of the Chief
                  information Officer.

                  10. Add an additional FTE to the                                         10. Estimated completion
                  Collaborative Alternative Dispute        The IG received Mgt. response
                                                           to IG findings and              2009.
                  Resolution Office to enable the
                  Authority process of resolution to       recommendations 3/30/09.
                  expand.


Follow-up on      2. Establish an integrated senior                                        2., 3., 4., 5., 6., and 8.
FY/2000 FLRA IG   leadership/mgt. team to address                                          Estimated completion
Review of FLRA    human capital issues and provide
Human Capital
                                                                                           2010.
                  justified recommendations to the
                  Chairman.


                  3. Reinstate monthly mgt. meetings
                  during which current mgt. issues are
                  discussed and each manager is
                  required to brief all managers on
                  major activities.


                  4. FLRA components should be
                  briefed on behavior and engage in
                  personality testing. (Myers Briggs
                  Type indicator and/or Strong Interest
                  Inventory). This could be done in –
                  house or at an offsite meeting.

                  5. The Agency needs to compile
                  more human capital statistics to make
                  proper human capital decisions. The
                  following data should be considered
                  to be collected by HRD:
                  - Workforce data,
                  - Skills inventory,
                  - Dates and dispersal of
                  performance appraisal,

                                           41st Semi Annual Report
                                                 Page 14 of 27
                     - Yearly vacancies and time
                     period required to fill them.
                     - Yearly data on number and
                     cost of bonuses, awards and
                     other incentives,
                     - Yearly statistics on
                     grievances,
                     - EEO complaints and costs in
                     dollars,
                     - Costs of promotions and within
                     grade increases, and amount per
                     employee spent for training and its
                     percentage of the operating budget.

                     6. Update the FLRA Strategic Plan
                     and have management revise
                     component action plans and
                     employee work and performance
                     plans with focus on agency-wide
                     results.

                     8. FLRA/HRD should perform an
                     Agency-wide employee skills
                     inventory. It definitely would provide
                     a baseline for skill needs, employee
                     training and future hiring.


Internal Review of   1. Add contemporary safety, health,        The IG received Mgt. response   1. and 2. Estimated
FLRA’s               and security information including the     to IG findings and              completion 2009.
Occupational         Emergency Plan and a current list of       recommendations 3/30/09
Safety and Health    FLRA policy to the website as well as
August 2003          the Orientation Package given to new
                     employees.

                     2. Increase Agency-wide training for
                     FLRA safety and health programs.
                     Ensure that all supervisors are
                     knowledge, aware of OSHA
                     requirements and provide
                     contemporary information to their
                     staffs. Include volunteer training to
                     CPR and increase safety evacuation
                     information to include maps of areas
                     to ensure employee safety.


                     4. FLRA/HRD should expand its                                              4-8. More information is
                     definition of sensitive positions to, at                                   required from ASD to
                     least, include Security Officers,                                          provide a complete
                     Computer information Officers and                                          answer. Estimated
                     both senior and line managers and                                          completion 2009.
                     comply within its Drug Free Work
                     place Plan by randomly testing at
                     least one person per year

                     5. The FLRA Exe. Dir and Admin
                     Ser. Div. Should review the
                     interagency Agreement with the Dept
                     of HHS and ensure that all stated
                     provisions are current and addressed.



                                                41st Semi Annual Report
                                                      Page 15 of 27
                   6. The FLRA Safety Program
                   Manager should ensure that all FLRA
                   subcomponents maintain
                   standardized sufficient and
                   accessible safety/protective
                   equipment.

                   7. FLRA management should
                   prioritize the development of an FLRA
                   Continuity of operations
                   (Contingency) Plan.

                   8. Annual FLRA Facility
                   (Headquarters and Regional Offices)
                   safety checks should be performed
                   by the building Security Officer or
                   FLRA Security Officer, and
                   maintained/documented and followed
                   up by ASD’s Security Officer.

                   3. Director of Administrative Service     The IG received Mgt. response   3. Estimated completion
                   Division should:                          to IG findings and              2009.
                                                             recommendations 3/30/09
                   (a) Work with building owners and
                   maintenance personnel to ensure that
                   parking garage exterior doors
                   remained locked and secured.
                   (b) .Install door locks on all interior
                   doors.

FY 2004 Audit of   1(2) FLRA CIO should:                     The IG received Mgt. response   1.-8. Estimated completion
FLRA Security                                                to IG findings and              2009.
Programs           (a) Fully develop disaster recovery,      recommendations 3/30/09
                   IT contingency or operations plan:

                   (b) Provide training to enable
                   personnel to effectively implement all
                   plans and require periodic training;
                   and,

                   (c) After each plan is implemented,
                   conduct and document testing to
                   ensure that each plan is responsive,
                   and periodically reevaluate plans and
                   keep plans current.

                   3(5). FLRA should ensure that a
                   management official authorizes in
                   writing the use of each general
                   support system based on an
                   acceptance of risks identified with the
                   system certification process as
                   described by NIST.

                   4(6) FLRA should ensure that staff
                   members adhere to documented
                   policies and procedures for
                   performing backups of network file
                   and mail servers.

                   (6)8. FLRA CIO should develop a
                   complete Security Program Plan,


                                             41st Semi Annual Report
                                                   Page 16 of 27
arrange for appropriate personnel to
review it, revise the plan accordingly
and obtain approval cognizant
executive management.


(7)9. FLRA CIO should develop,
document and implement an incident
response plan consistent with NIST
and OMB criteria.


8(10). FLRA should:

(a) Take immediate action to ensure
timely development and
implementation of policies and
procedures necessary to establish
and support FLRA’s information
security program, and;

(b) Develop and implement policies
and procedures to track evaluate, and
monitor FLRA’s information and
information systems security program
in accordance with OMB Circular A-
130, Appendix III; and

(c) Ensure proper and timely
reporting to OMB and Congress.

                                                                         10(12) Estimated
10(12). FLRA CIO should:                 The IG received Mgt. response   completion 2009.
                                         to IG findings and
(a) Develop and implement a formal       recommendations 3/30/09
SDLC methodology based on NIST
guidance and ensure the policy
addresses the following elements:
- Sensitivity of data to be processed
in the system,

- Resources required for adequately
securing the system,

- Input form the equivalent of an
Investment Review Board,

- Authorization for software
modification documentation and
maintenance,

- Budget request to include security
resources for the system,

- Security controls consistent with
and integral to senior management’s
standards, and

- Security requirements to be
included in solicitation
documentation.



                          41st Semi Annual Report
                                Page 17 of 27
                  (b) Develop and implement a formal
                  change control policy outlining the
                  procedures needed to ensure that
                  system configuration changes are
                  properly documented, authorized,
                  approved, and tested before being
                  moved into production or
                  implemented.


                  12(14) FLRA CIO should:                   The IG received Mgt. response   12(14) Estimated closure
                  (a) Develop policies and procedures       to IG findings and              2010.
                  requiring periodic review of user         recommendations 3/30/09
                  access controlled, and;

                  (b) Analyze generic accounts
                  currently active on the network
                  operating system to ensure that they
                  are appropriate and that account
                  access are controlled and monitored.


                  14(16) FLRA should obtain the proper                                      14(16) Estimated closure
                  testing material and scan all FLRA                                        2010.
                  laptops/computers throughout the
                  Agency to see if they contain
                  improper websites.


2005 Financial    1. Executive Mgt. should start the        The IG received Mgt. response   1. and 2. Estimated
Statement April   agency towards FISMA compliance           to IG findings and              closure 2009.
14, 2006          by providing support for correcting the   recommendations3/30/09.
                  out-of-compliance situation. This
                  support should consist of
                  memoranda, policy and documented
                  directions, but also of financial and
                  budgetary resource allocation for the
                  goods, services, and personnel
                  needs of the agency to correct the
                  situation. This support, along with the
                  undertaking of corrective actions by
                  the Chief information Officers and
                  other FLRA Staff, should be focused
                  on implementing the provided to the
                  FLRA from the fiscal year 2004
                  FISMA Audit Report.


                  2. Executive management should
                  establish who is to perform Chief
                  Financial Officer duties and
                  responsibilities for the agency. This
                  individual should have the
                  appropriate knowledge and skills
                  needed for fulfilling all the necessary
                  duties and responsibilities.

                  As an interim measure, other FLRA
                  employees should be given the
                  appropriate training and guidance to
                  establish adequate support for the
                  continued functions. This would


                                            41st Semi Annual Report
                                                  Page 18 of 27
                     ensure that is a sufficient “backup
                     knowledge base” in other employees
                     in the event of a loss of a single
                     critical employee.

                     13. The FLRA should ensure that the      The IG received Mgt. response
                                                                                              13. Estimated completion
                     PAR is delivered by the regulatory       to IG findings and              2009.
                     due date.                                recommendations 3/30/09



2006 Financial       4. Management ensure that FISMA          The IG received Mgt. response   4. Estimated closure 2009.
Statement Audit      is complied with and that each year      to IG findings and
April 14, 06         an independent evaluation of             recommendations on 3/30/09
                     information security program and
                     practices of FLRA is done to
                     determine the effectiveness of such
                     programs and practices with the
                     deficiencies report with the
                     deficiencies reported under those
                     evaluations being properly addressed
                     and resolved.




                     6. Mgt. has failed to respond to         The IG received Mgt. response   6. Estimated closure 2009.
                     weaknesses in control environments       to IG findings and
                     of previous financial statement audits   recommendations on 3/30/09
                     and extensive amount of FLRA
                     Inspector General findings and
                     recommendations stated to
                     independent and objective oversight
                     activities. Mgt. needs to evaluate and
                     audit, investigation and oversight
                     report findings and recommendations
                     and provide responses and resolution
                     to all issues addressed in these
                     reports.

                     3. Mgt. must issue PAR reports to        The IG received Mgt. response   3. Estimated completion
                     Financial Statement auditors and         to IG findings and              2009.
                     must be completed in order to render     recommendations on 3/30/09
                     an audit opinion.



Internal Review of   1(a) The FLRA Executive Director         The IG received Mgt. response   1-3 Estimated closure
FLRA                 should immediately create a new          to IG findings and              2010.
Administrative       instruction for creating FLRA            recommendations on 3/30/09
Policy February      administrative instructions.
2007                 (b) The FLRA Executive Director
                     should immediately review the
                     cancelled policies and have
                     necessary replacement policies
                     issued as quickly as possible.
                     (c) The FLRA Executive Director
                     should address the review, update,
                     and/or revision of all FLRA
                     administrative instructions issued
                     over 5-7 years ago, especially those
                     related to Human Resources,


                                              41st Semi Annual Report
                                                    Page 19 of 27
                     Security Contracting, Procurement
                     and Financial Statement/Budgeting
                     and Accounting.


                     2. The FLRA Executive Director
                     should immediately review all current
                     instructions without Executive
                     Directors signature and sign or attach
                     a signature to all instructions
                     implemented during the last 7 years
                     that have not been removed.

                     3. The FLRA Executive Director
                     should review the 6 listed instructions
                     that are on the FLRA website and
                     cancellations list. If they are
                     acceptable as current policy, remove
                     them from cancellations list. If they
                     should be cancelled, remove them
                     from the FLRA instruction website.

                                                                                               1. Estimated completion
Internal Review of   1. FLRA Strategic Plan focuses on         The IG received Mgt. response   2009.
FLRA                 mission requirements. Mgt should          to IG findings and
Administrative       include in FLRA’s Strategic Plan,         recommendations 3/30/09
Programs 2008        administrative programs such as
                     Budget and Performance Integration,
                     Competitive Sourcing, Electronic
                     Government, Human Capital and
                     Financial Performance, Contracting,
                     Emergency Relief, Medical Insurance
                     and Labor Management.
                                                                                               2. Estimated completion
                     2. Management should address the                                          2009.
                     following issues relating to

                     Administrative Programs to support
                     improvement, create proper internal
                     controls and eliminate:

                     - What is the purpose of the
                     Administrative Programs;
                     - How are we set-up to achieve this
                     purposes;
                     - What we plan to do with the
                     Administrative Program in the future;
                     - What is the quality and results
                     expected in our plan;
                     - What is defined as success of
                     improvement, and;
                     - How accountable do we consider
                     our achievements.


                                                                                               3.-5. Estimated completion
                     3. Management should create an                                            2009.
                     IRM strategic plan to include what
                     needs to be and will be addressed
                     over the next few years and it should
                     contain E-Government and FISMA
                     requirements. As a result of this


                                               41st Semi Annual Report
                                                     Page 20 of 27
2007 FISMA evaluation and
Management Survey, the FLRA
Inspector General recommends that
the following issues be addressed.
They have not yet been responded
to.

4. A Feedback mechanism needs to
be established so that FLRA
employees can provide their
computer information technology and
security concerns directly to
information Resource Management
and receive timely responses to their
concerns personally.

5. FLRA should address compliance
with the Government Paperwork
Elimination Act so that FLRA’s
document management infrastructure
would support electronic filing of
charges and secure recommendation.



10. FLRA management needs to            The IG received Mgt. response
                                                                        10. and 11. Estimated
provide more clarity about what         to IG findings and              completion 2010.
constitutes performance management      recommendations on 3/30/09
and involve employees in defining
successful performance.

11. Performance plans need to be
created and implemented for all
FLRA employees.


14. The FLRA Strategic Plan needs                                       14. Estimated completion
to be updated to include                The IG received Mgt. response   2009. IG will be notified
administrative programs, as well as,    to IG findings and              as soon as strategic plan is
mission related program.                recommendations on 3/30/09      finalized.


15. FLRA instructions and policies      The IG received Mgt. response   15. Estimated completion
that are more than 7 years old should   to IG findings and              2010.
be updated and implemented as soon      recommendations on 3/30/09
as possible.




                        41st Semi Annual Report
                              Page 21 of 27
                        Federal Labor Relations Authority
                         Office of the Inspector General
                           FY 2009 Investigation Log

Case No.    Subject                         Date Received       Status
            Two Federal Labor               October 6, 2008     Investigation conducted by
2009-I-01   Relations Authority                                 the Federal Labor
            Employees alleged                                   Relations Authority and
            improper issuance of                                closed on
            performance awards to a                             October 27, 2008
            third Information
            Technology employee.
            A Department of Veteran         October 29, 2008    Referred to Department of
2009-I-02   Affairs in North Hills                              Veteran Affairs
            California Biological                               Inspector General
            Laboratory Technician was                           October 29, 2008
            terminated from her
            position without notification
            to her or her boss, did not
            get proper pay or
            interaction with the VA
            Administration,
            Director/Chief of Payroll or
            Chief of Employee and
            Labor.
2009-I-03   Investigation of FLRA’s          December 6, 2008   Completed January 23
            Global Tech Inc.                                    2009
            Information Technology
            contract requested by
            Chairman, FLRA
2009-I-04   Allegations against the          February 6, 2009   Preliminary Investigation
            Pension Benefit Guaranty                            Closed. Investigation not
            Corporation not following a                         addressed.
            Federal Labor Relations                             February 27, 2009
            Authority unfair labor
            practice charge, was
            forwarded by PBGC IG.
            The allegations were
            related to PBGC
            management and were not
            related to fraud, waste,
            abuse or mismanagement.
            There was no indication
            that the Washington
            Regional Office did not
            handle the case properly.
2009-I-05   A Veterans Administration       March 10, 2009      Referred to the
            Fiscal Department in                                Department of Defense
            Anchorage Alaska stated                             Inspector General
            he was continually paid for
            80 hrs after he went to a                           March 10, 2009
            48 hr status. He brought
            this issue to management,
            by phone and writing but
            no one seemed to
            respond. He resigned in
            March 2008 and his matter
            was not addressed by the
            VA.




                          41st Semi Annual Report
                                Page 22 of 27
                                     Federal Labor Relations Authority
                                        Office of Inspector General
                                           Hotline Log FY 2009

Case No.    Subject                                                        Date Received   Status
2009-H-01   Former military employee sent information relating to          11-10-08        Not addressed
            complaints issued to EEO, U.S. Attorney Offices, and                           because the filing
            FLRA Atlanta Regional Office from 1992 through 2002                            of unfair labor
            relating to allegations of violations of federal law,                          practice charges
            harassment and improper handling of a senior employee                          did not take place
            who was also a member of the Naval Air Station,                                since 1997
            Jacksonville, Florida’s EEO Committee and Union.                               Closed 11/10/08
2009-H-02   VA Medical Center employee complained that his                 3-6-09          Referred
            management improperly handled his ability to drive his                         complainant to the
            federal car. He previously filed a complaint with EEO and                      Department of
            felt they did not investigate the issue properly.                              Defense Inspector
                                                                                           General.

                                                                                           Closed 3-6-09
2009-H-03   Contractor from U.S. Postal Service concerned that             3-23-09         Referred
            payments to drivers in Denver Colorado and North Dakota                        complainant to the
            have been taken away and the contractors are not                               Department of
            receiving the payments.                                                        Labor Inspector
                                                                                           General

                                                                                           Closed 3-23-09
2009-H-04   President of AFGE stated he was trying to get the status       3-25-09         The Inspector
            of several unfair labor practice charges filed with the FLRA                   General discussed
            Washington Regional Office and left several calls and e-                       this issue with the
            mails with the Director and Deputy Director and received                       Director of the
            no response.                                                                   FLRA Washington
                                                                                           Office who stated
                                                                                           he talks with the
                                                                                           President, AFGE
                                                                                           every week and
                                                                                           called him back
                                                                                           immediately
                                                                                           today.

                                                                                           Closed

                                                                                           3-25-09




                                       41st Semi Annual Report
                                             Page 23 of 27
                                                   TABLE I

            INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                      NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has been               No Questioned Costs
made by the commencement of the reporting                  submitted during this
period.                                                      reporting period
B. Which were issued during the reporting                2008 Financial Statement
period?                                                           Audit
                                                           Not completed as of
                                                           September 30, 2008
                                                          The Agency PAR report
C. For which a management decision was made                        and
during the reporting period.                             The Financial Statement
                                                          Audit has not yet been
                                                                 issued.
         (i) Dollar value of disallowed costs.

         (ii) Dollar value of costs not disallowed.                   .

D. For which no management decision has been
                                                           No Questioned Costs
made by the end of the reporting period.
                                                   TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                 NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has                The Current Chair has
been made by the commencement of the                    approved the Inspector
reporting period.                                      General’s 2010 Financial
                                                                                       $85,000.00
                                                       Statement Audit and
                                                       Information Technology and
                                                       FISMA Audit
                                                      2008 Financial Statement Audit
B. Which were completed during the reporting
                                                            not yet completed.
period?
C. For which a management decision was
                                                              Same as Above
made during the reporting period.
        (i) Dollar value of recommendations
                                                             None issued yet
        that were agreed to by management.
        (ii) Dollar value of costs that were not         Current Chair agreed for 2
        agreed to by management.                          audits for the Inspector
                                                                  General.
                                                           2005-2007 Financial
D. For which no management decision has                       Statement Audit
been made by the end of the reporting period.           Findings/Recommendations
                                                          are being addressed by
                                                           current management




                                       41st Semi Annual Report
                                             Page 24 of 27
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                           October 1, 2008 –March 31, 2009

SUBJECT                                                       STATUS

Administrative Investigations                                     5
                                                                Closed



Inspector General Hotline Calls:                                   4
                                                                Closed


FOIA Requests                                                     2




                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                         CORRECTIVE ACTION SUMMARY
                          October 1, 2008 – March 31, 2009
                                                                 127
Total Corrective Actions
                                                                 13
New Corrective Actions

Open Corrective Actions                                          53

Total Actions Closed This Period                                 74

Total to be Carried Over                                         66




                                   41st Semi Annual Report
                                         Page 25 of 27
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                41st Semi Annual Report
                                      Page 26 of 27
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                   202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 41st Semi Annual Report
                       Page 27 of 27
